                             Application of the
                    Earned Income Credit Two-Year Ban
                    Could Be More Consistent, Accurate,
                          and Clear to Taxpayers

                                  December 2004

                       Reference Number: 2005-40-015




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  December 10, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION
                     COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Application of the Earned Income Credit
                                    Two-Year Ban Could Be More Consistent, Accurate, and Clear
                                    to Taxpayers (Audit # 200340008)


      This report presents the results of our review of the Earned Income Credit (EIC) 2-year
      ban. The overall objective of this review was to determine whether the Internal
      Revenue Service (IRS) effectively implemented the ban. We determined whether the
      ban was consistently and correctly applied, the ban indicator was properly set and was
      properly released when the ban expired, and returns subject to the ban were correctly
      banned. We also determined whether instructions and notices to taxpayers regarding
      the ban were clear, complete, and accurate.
      To help address EIC abuse, the Congress passed legislation1 prohibiting taxpayers from
      receiving the EIC for 2 tax years if the IRS determines that their EIC claim is due to
      reckless or intentional disregard of rules and regulations. The ban is an important tool
      to help the IRS combat noncompliance. It not only encourages compliance but also
      helps to conserve resources because the IRS can deny the EIC during the ban period
      without conducting an examination. However, in using the ban, the IRS must strike a
      delicate balance between its compliance goals and protecting the rights of low-income
      taxpayers who may not understand the law or may not have the ability to document their
      entitlement to the EIC. During Fiscal Year 2003, the IRS applied the ban to
      approximately 8,600 taxpayer accounts. As of July 2003, there were approximately
      18,000 taxpayer accounts with the ban in effect.


      1
       Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
      5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                              2

In summary, improvements are needed to ensure the ban is effectively and correctly
used. IRS computer programming accurately set the ban indicator on taxpayers’
accounts when examinations were closed with improper EIC claims. However,
examiners did not always consistently and correctly apply the ban, computer
programming did not always prevent the EIC for the appropriate 2 tax years, and IRS
communications did not always provide taxpayers with complete ban information.
•   Examiners at only three of the seven IRS Compliance sites working EIC Program
    examinations regularly considered and applied the ban, with the percent of EIC
    examinations with the ban applied ranging from 0 to 6.3 percent among the
    Compliance sites. Examiners applying the ban used inconsistent criteria, applied
    some incorrect bans, and applied some unintended bans. As a result, taxpayers
    were not treated consistently. Some taxpayers who should have been banned were
    not, including some who engaged in flagrant EIC abuse. Other taxpayers were
    banned when it was not warranted. Ban guidelines provided by the IRS National
    Headquarters office were not clear, complete, or consistent and did not always
    accurately reflect the law. This created confusion that contributed to these
    conditions.
•   After the ban was set, computer programming did not always prevent the EIC for the
    correct 2 tax years. As subsequent tax returns were processed for banned
    taxpayers, some returns had the EIC banned when it should not have been; other
    tax returns did not have the EIC banned when it should have been. This occurred
    because the programming did not consider unfiled tax returns when determining
    which returns were banned and when to release the ban. The programming only
    counted tax returns that were filed, so if taxpayers did not file returns for tax years
    that should have been banned, later tax returns were banned in error. In addition,
    the programming also released the ban after a specified period of time, allowing
    taxpayers who filed late returns to avoid the ban.
•   The ban notice, form instructions, and EIC publication need to provide more
    complete ban information and help taxpayers avoid the ban. These documents did
    not clearly inform taxpayers who were trying to recertify their EIC eligibility of their
    responsibilities and warn them about the ban. This is especially important because,
    in our case review, approximately one-half of the taxpayers intentionally banned by
    examiners were trying to recertify. These documents also did not always tell
    taxpayers which tax years were banned.
We recommended the Commissioner, Wage and Investment (W&I) Division, with input
from the Commissioner, Small Business/Self-Employed Division, improve guidelines,
consider identifying examination cases with apparent EIC abuse before taxpayers are
contacted, and improve oversight for ban training and application. In addition, the
Commissioner, W&I Division, should revise ban programming to consider unfiled and
late-filed tax returns and improve taxpayer correspondence and instructions. These
actions would help ensure the ban is applied more consistently and correctly, the
appropriate years are banned, and taxpayers can more easily comply with or avoid the
ban.
                                            3

Management’s Response: IRS management agreed with our recommendations and
has initiated corrective actions. The IRS revised guidelines to include comprehensive
sections explaining the 2-year ban; stressed application of the 2-year ban in various
meetings; revised the ban notice and applicable forms, instructions, and publications;
and updated annual training to incorporate more examples of suggested paragraphs
addressing the deficiencies noted in this review.
In addition, the IRS will select egregious cases for application of the 2-year ban before
issuance of an initial contact letter. Lastly, an interactive web-based tool to assist
examiners in making proper EIC determinations will include reminders to consider
imposing the 2-year ban when taxpayers do not comply with the EIC rules. This tool will
also provide links to the revised ban guidance. The IRS will update ban programming to
consider nonfiled years when determining the ban period. In addition, a new display
field will show the year the ban expires. This field will print on the revised ban notice.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                     Application of the Earned Income Credit Two-Year Ban
                   Could Be More Consistent, Accurate, and Clear to Taxpayers




                                                  Table of Contents


Background ............................................................................................... Page 1
Computer Programming Placed the Correct Indicator on
Banned Taxpayers’ Accounts.................................................................... Page 2
Examiners Did Not Always Consistently and Correctly
Apply the Two-Year Ban ........................................................................... Page 3
         Recommendation 1: .......................................................................Page 9
         Recommendations 2 and 3: ...........................................................Page 10

Due to the Design of the Computer Programming, the
Appropriate Tax Years Were Not Always Banned..................................... Page 10
         Recommendation 4: .......................................................................Page 12

Correspondence and Instructions Related to the
Two-Year Ban Need Improvement ............................................................ Page 12
         Recommendations 5 and 6: ...........................................................Page 15

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 17
Appendix II – Major Contributors to This Report ....................................... Page 19
Appendix III – Report Distribution List ....................................................... Page 20
Appendix IV – Outcome Measures............................................................ Page 21
Appendix V – Ban Guideline Issues .......................................................... Page 23
Appendix VI – Management’s Response to the Draft Report .................... Page 28
               Application of the Earned Income Credit Two-Year Ban
             Could Be More Consistent, Accurate, and Clear to Taxpayers

                                The Earned Income Credit (EIC) is a refundable tax credit
Background
                                available to low-income, working taxpayers. The amount of
                                the EIC taxpayers qualify for is based on their income level,
                                filing status, and whether (1) they have qualifying children
                                or (2) they have no qualifying children but meet age,
                                dependency, and residency requirements. For Tax
                                Year (TY) 2003, the maximum EIC amount was $382
                                for taxpayers without a qualifying child, $2,547 for
                                taxpayers with 1 qualifying child, and $4,204 for taxpayers
                                with 2 qualifying children.
                                Because of concerns about the extent of erroneous EIC
                                claims, the Congress passed legislation1 that placed
                                restrictions on taxpayers that improperly claim the credit on
                                TY 1997 and subsequent tax returns. Taxpayers denied the
                                EIC as the result of an Internal Revenue Service (IRS)
                                examination must prove their eligibility before they will be
                                allowed the credit on any subsequent tax returns. In
                                addition, taxpayers are prohibited from receiving the EIC
                                for 2 tax years if the examination determines their claim for
                                the EIC is due to reckless or intentional disregard of EIC
                                rules and regulations.
                                In response to this legislation, the IRS implemented the
                                EIC Recertification Program. The IRS places a
                                recertification indicator on taxpayers’ accounts when their
                                EIC has been denied as the result of an examination of their
                                tax return. Different values of this indicator are used to
                                identify taxpayers that are required to prove their EIC
                                eligibility (“recertify”) and taxpayers that are subject to the
                                2-year ban. These indicators are intended to prevent the
                                EIC from being improperly allowed when subsequent tax
                                returns are processed.
                                The recertification indicators are automatically placed on
                                taxpayers’ accounts when EIC examinations are completed.
                                The indicator requiring recertification is set when the EIC is
                                decreased. The ban indicator is set when the EIC is
                                decreased and the accuracy-related penalty is assessed.
                                After their bans expire, taxpayers must recertify their EIC


                                1
                                  Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788
                                (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C.,
                                26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                                                                 Page 1
               Application of the Earned Income Credit Two-Year Ban
             Could Be More Consistent, Accurate, and Clear to Taxpayers

                                eligibility (usually through an examination) to receive the
                                EIC again.
                                The ban is an important tool to help the IRS combat
                                noncompliance. It not only encourages compliance but also
                                helps to conserve resources because the IRS can deny the
                                EIC during the ban period without conducting an
                                examination. However, in using the ban, the IRS must
                                strike a delicate balance between its compliance goals and
                                protecting the rights of low-income taxpayers who may not
                                understand the law or may not have the ability to document
                                their entitlement to the EIC. During Fiscal Year 2003, the
                                IRS applied bans to approximately 8,600 taxpayer accounts.
                                As of July 2003, there were approximately 18,000 taxpayer
                                accounts with the ban in effect.
                                This review was performed at the IRS National
                                Headquarters office and at the Andover, Massachusetts;
                                Atlanta, Georgia; Austin, Texas; Brookhaven, New York;
                                Fresno, California; Kansas City, Missouri; and
                                Philadelphia, Pennsylvania, Compliance Sites during the
                                period June 2003 through May 2004. The audit was
                                conducted in accordance with Government Auditing
                                Standards. Detailed information on our audit objective,
                                scope, and methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                When examiners examine a tax return and determine a
Computer Programming Placed
                                ban is warranted, they close the examinations using
the Correct Indicator on
                                transactions that should cause IRS computer programming
Banned Taxpayers’ Accounts
                                to automatically set the ban indicator on the taxpayers’
                                accounts. This indicator is used to prevent the EIC from
                                being allowed when subsequent tax returns subject to the
                                ban are filed. It also alerts IRS employees to the fact that
                                the taxpayer is subject to the ban.
                                IRS computer programming accurately set the ban indicator
                                on taxpayers’ accounts when examinations were closed with
                                improper EIC claims. We identified approximately
                                7,500 examinations closed from October 2002 through
                                August 2003 with transactions that should have set the ban
                                indicator.2 The ban indicator was correctly set on these

                                2
                                 These examinations had a decrease in the EIC and an accuracy-related
                                penalty assessed.
                                                                                              Page 2
                 Application of the Earned Income Credit Two-Year Ban
               Could Be More Consistent, Accurate, and Clear to Taxpayers

                                  taxpayers’ accounts. Also, a test of taxpayer accounts with
                                  the ban indicator showed the accounts properly had a tax
                                  return examination closed with transactions that would have
                                  set the ban.
                                  Although the IRS properly set the indicator for taxpayers
                                  banned by examiners, we identified several problem
                                  conditions. Examiners did not always consistently and
                                  correctly apply the ban, computer programming did not
                                  always prevent the EIC for the appropriate 2 tax years, and
                                  IRS communications did not always provide taxpayers with
                                  complete ban information.
                                  Application of the ban was inconsistent among the various
Examiners Did Not Always
                                  IRS Compliance sites and among examiners at the same
Consistently and Correctly
                                  site. Examiners used different ban criteria, applied some
Apply the Two-Year Ban
                                  incorrect bans, and applied some unintended bans to the
                                  taxpayers they examined. As a result, taxpayers were not
                                  treated consistently. Some taxpayers who should have been
                                  banned by examiners were not, including some who
                                  engaged in flagrant EIC abuse. Other taxpayers were
                                  banned by examiners when it was not warranted.
                                  Consequently, IRS resources may be wasted examining
                                  taxpayers who should have been banned,3 while other
                                  taxpayers may be incorrectly denied the EIC for 2 tax years.
                                  The IRS strives to apply the tax law consistently and fairly
                                  to all taxpayers. The ban should be applied when an
                                  examiner determines the taxpayer’s EIC claim is denied due
                                  to reckless or intentional disregard of the rules and
                                  regulations. We realize that ban determinations are based
                                  on examiners’ judgment, but the inconsistencies noted went
                                  far beyond any variations we would expect from judgment
                                  differences.
                                  Examiners at some Compliance sites applied the ban,
                                  while those at other sites did not
                                  We compared the number of bans to EIC examinations
                                  closed by the IRS Compliance sites from October 2002
                                  through August 2003. This analysis, in conjunction with


                                  3
                                    Taxpayers who should have been banned, but were not, would be
                                  subject to the EIC recertification process. If they claim the EIC and
                                  request recertification, their tax returns would likely be examined.
                                                                                                   Page 3
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   our discussions with managers and employees at the sites,
                   showed that examiners at only three of seven IRS
                   Compliance sites examining EIC tax returns were regularly
                   considering the ban and applying it. The percentage of
                   examinations with the ban applied ranged from 0 to
                   6.3 percent among the sites.
                       Percentage of EIC Examinations With the 2-Year Ban by Site4

                                     7
                                     6
                                     5


                           Percent
                                     4
                                     3
                                     2
                                     1
                                     0
                                         AN AT AU BR FR KC PH
                                         .03 .7 6.3 .06 0.0 .05 3.6
                                               Compliance Sites


                   Source: The number of bans was determined from our Master File5
                   extract. The number of EIC examinations was provided by the IRS.

                   Bans were not applied consistently and were not always
                   correct
                   There were significant differences in the criteria examiners
                   used to apply the ban, not only at different IRS Compliance
                   sites but also among examiners at the same site. These
                   differences were evident from both our case reviews and
                   interviews. To illustrate:
                   Repeat behavior: Taxpayers trying to “recertify” their EIC
                   eligibility will typically have their returns examined and be
                   asked to prove their EIC entitlement.6 National EIC
                   Program guidelines instructed examiners to ban these
                   taxpayers if their EIC was again disallowed because, as in

                   4
                     The sites included, from left to right, Andover, Atlanta, Austin,
                   Brookhaven, Fresno, Kansas City, and Philadelphia.
                   5
                     The IRS database that stores various types of taxpayer account
                   information. This database includes individual, business, and employee
                   plans and exempt organizations data.
                   6
                     As explained on Page 1, taxpayers whose EIC was denied in a prior
                   examination must prove their eligibility before they will be allowed the
                   credit on a subsequent tax return.
                                                                                   Page 4
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   the prior examination, they could not prove the child was
                   their qualifying child.7
                   Examiners’ ban decisions for taxpayers denied the EIC in a
                   prior examination were inconsistent. Some examiners
                   routinely applied the ban in the subsequent examination
                   when, in our opinion, there was no clear indication of
                   “reckless or intentional disregard” of EIC rules. The
                   taxpayers were banned merely because they did not provide
                   enough documentation to support their EIC claim. In
                   contrast, other examiners determined that taxpayers in
                   similar situations should not be banned.
                   The Government Accountability Office (GAO) reported8
                   that low-income taxpayers often have difficulty obtaining
                   EIC documents that IRS examiners will accept, and
                   examiners’ assessments of the documents are inconsistent.
                   We do not believe it is appropriate to ban taxpayers whose
                   EIC was previously denied merely because they provide
                   insufficient documentation in a subsequent examination.
                   We believe these taxpayers should be banned only when the
                   examination case facts indicate (1) the taxpayer clearly did
                   not meet legal requirements for claiming the EIC on the
                   subsequent return and (2) the prior examination would have
                   made the taxpayer aware of the legal requirement(s) that
                   was not met.
                   Examiners applied incorrect bans in 9 (8 percent) of
                   116 examinations in which taxpayers were banned. Of the
                   nine, examiners banned seven taxpayers with the EIC
                   denied in a prior examination but with no indication of
                   reckless or intentional disregard of EIC rules in the ban year
                   (this included five taxpayers who were unable to provide
                   sufficient documentation to support their EIC and two
                   taxpayers who likely did not know they were not entitled to
                   the EIC).9



                   7
                     See Appendix V for the exact wording of this guideline.
                   8
                     Earned Income Credit - Opportunities to Make Recertification
                   Program Less Confusing and More Consistent (GAO-02-449, dated
                   April 2002).
                   9
                     One taxpayer filed the subsequent ban year return long before the prior
                   examination closed; the second taxpayer was not entitled to the EIC for
                   the ban year because the law had changed since the prior examination.
                                                                                    Page 5
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   National EIC Program guidelines showing the example of
                   a taxpayer with the EIC denied in a prior examination were
                   issued when examiners were to start applying the ban in
                   January 2000. Examiners’ training material for Calendar
                   Year 2004 included more detailed examples that made it
                   clear there should be indications of abuse by these repeating
                   taxpayers rather than simply a lack of documentation.
                   These revised examples and the associated training should
                   help to reduce the number of incorrect bans.
                   Examinations with no response: The IRS uses an
                   automated system to process most EIC examination cases.
                   While examiners review some cases in which taxpayers
                   have not responded to the examination notices, most cases
                   are reviewed by examiners only if a taxpayer responds to a
                   notice. Cases without a response will often be worked
                   completely by the automated system and never be seen by
                   an examiner.
                   National EIC Program guidelines varied on applying the ban
                   for examinations with no response but generally instructed
                   examiners to apply the ban only if the taxpayer responded.
                   However, IRS procedures for applying the accuracy-related
                   penalty and other IRS guidance on the ban indicated that
                   examiners could apply the ban without a taxpayer response
                   when case facts and circumstances indicated reckless or
                   intentional disregard of the EIC rules. We believe
                   examiners should apply the ban without a taxpayer response
                   when warranted.
                   Ban application for examinations with no response was
                   inconsistent. The majority of examiners told us they would
                   not ban taxpayers without a response. Other examiners
                   would ban these taxpayers if available case facts and
                   circumstances supported the ban. In addition, there was no
                   opportunity for examiners to place the ban on cases worked
                   completely by the automated system.
                   As a result, taxpayers who tried the hardest to prove their
                   EIC eligibility by responding to examination notices were
                   the most likely to be banned; whereas, taxpayers who
                   flagrantly abused the EIC but did not respond to the notices
                   were not always banned. In our review of a sample of


                                                                         Page 6
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   85 examinations with intentional bans,10 56 (66 percent) had
                   taxpayer responses. The remaining 29 (34 percent) had no
                   response from the taxpayer. Examiners at one site banned
                   taxpayers for many of the examinations with no response
                   that involved flagrant EIC abuse with apparent fabricated
                   business income.11
                   This illustrates two ban issues that contributed to
                   inconsistent and/or incorrect bans. See Appendix V for
                   additional ban guideline issues and details.
                   Examiners unintentionally set some bans
                   As stated earlier in this report, the ban is automatically set
                   when an examination of a tax return results in a decrease of
                   the EIC and an assessment of the accuracy-related penalty.
                   This combination of transactions may occur even when the
                   examiner has not determined the ban applies.
                   Examiners unintentionally set bans on taxpayers’ accounts
                   in 31 (27 percent)12 of 116 examinations with bans that we
                   reviewed. This occurred most often when taxpayers’ returns
                   were adjusted for unreported income. In some cases, the
                   EIC was examined and decreased; in others, it was
                   decreased only due to the change in income. The examiners
                   had not determined that these taxpayers recklessly or
                   intentionally disregarded the EIC rules but had assessed the
                   accuracy-related penalty due to the unreported income.
                   There are procedures for removing unwanted bans;
                   however, these examiners were not aware that their
                   examination actions set the ban. Therefore, they did not
                   remove these unintended bans from taxpayers’ accounts.
                   Inadequate management oversight at both the national and
                   local levels led to the above conditions. The following
                   causes also contributed to the conditions.


                   10
                      Of the 116 examinations with bans that we reviewed, 85 had bans that
                   were intended by the examiners and 31 had bans that were not intended.
                   11
                      Income reported on Profit or Loss From Business (Schedule C).
                   Schedule C income can qualify taxpayers for the EIC.
                   12
                      Due to our sampling method, the cases reviewed had a higher percent
                   of unintended bans than we would expect to find in the overall ban
                   population for the Compliance sites. At two sites that were generally
                   not applying the ban, almost all our sample cases had unintended bans.
                                                                                  Page 7
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   Inadequate ban guidelines: The ban guidelines provided by
                   the National Headquarters office for the EIC Program were
                   not clear, complete, and consistent and, in our opinion, did
                   not always accurately reflect the law. This caused
                   confusion that contributed to the ban problems.
                   The National EIC Program ban guidelines were a
                   combination of written procedures, emails, discussions, and
                   training materials. None of the examiners we interviewed
                   had all the guidelines available for reference. We were
                   often told by examiners and their managers that they needed
                   better procedures and were not comfortable with applying
                   the ban.
                   Ban guidance included information on taxpayers with the
                   EIC previously denied, examinations with no response,
                   examinations allowing the EIC with no qualifying children,
                   and amended returns. The guidance on some issues
                   changed, was not always distributed to all the Compliance
                   sites, and was not always appropriate. See Appendix V for
                   details.
                   The ban guidelines and examples did not address many of
                   the most common situations that might warrant the ban. For
                   example, there was no mention of altered documents,
                   taxpayers claiming someone else’s children, taxpayers
                   living with their spouse but using Head of Household filing
                   status, or fabricated Schedule C income. Some examiners
                   and their managers told us they would ban only those
                   taxpayers who had the EIC disallowed in a prior year. The
                   limited examples provided in the guidance may have
                   contributed to this approach.
                   Inadequate local training, emphasis, and oversight:
                   Analysts at the Compliance site that applied the most bans
                   told us that applying the ban was a radical change. It was
                   difficult to implement and required significant emphasis by
                   local management to overcome their examiners’ reluctance
                   to apply it. All the examiners we interviewed at this site
                   told us they had received ban training, considered the ban in
                   their examination work, and had applied the ban.
                   In contrast, at a Compliance site that was not applying the
                   ban, it did not receive similar emphasis. Many examiners
                   told us they had not received ban training; others indicated

                                                                          Page 8
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   that the training received was limited, informal, or not
                   emphasized. Most examiners did not consider the ban in
                   their examination work, and only 1 of 16 interviewed had
                   ever applied a ban. However, an analyst and Operations
                   Manager for these examiners thought the examiners were
                   applying the ban.
                   Inadequate ban explanations: The principal control to
                   ensure bans are correct is that every ban must be approved
                   by the examiner’s manager. Examiners’ workpaper
                   explanations were often not sufficient to support the ban.
                   Many examiners made general comments about case
                   characteristics or simply stated they were applying the
                   penalty/ban, rather than explaining what the taxpayer did
                   that was considered reckless or intentional disregard of the
                   EIC rules. Inadequate ban explanations in examiners’
                   workpapers make it more difficult for managers to evaluate
                   bans and may have contributed to incorrect bans.

                   Recommendations

                   To help ensure 2-year bans are consistently and correctly
                   applied, the Commissioner, Wage and Investment (W&I)
                   Division, along with the Commissioner, Small
                   Business/Self-Employed Division, should:
                   1. Revise and distribute written ban guidelines that are
                      clear, complete, consistent with other IRS programs and
                      procedures, and accurately reflect the law. This should
                      include, at a minimum:
                      a. Issuing guidelines that include each of the problem
                         areas identified in this review (see Appendix V),
                         examples of the most common situations warranting
                         the ban, and examples of ban explanations.
                      b. Ensuring written guidelines explaining how the
                         ban is set and how to remove it are distributed and
                         emphasized to examiners for all Compliance
                         function programs, both at the Compliance sites and
                         in the field offices.
                   Management’s Response: The IRS revised guidelines to
                   include comprehensive sections explaining the 2-year ban.
                   The IRS also updated annual training to incorporate more
                                                                         Page 9
                Application of the Earned Income Credit Two-Year Ban
              Could Be More Consistent, Accurate, and Clear to Taxpayers

                                 examples of suggested paragraphs addressing the
                                 deficiencies noted in this review.
                                 2. Consider using available data13 to identify EIC
                                    examination cases with apparent abuse before taxpayers
                                    are contacted. Examiners could review these cases,
                                    which might otherwise be worked completely by the
                                    automated system, and propose a ban on the initial
                                    examination report when warranted.
                                 Management’s Response: The IRS will select egregious
                                 cases for application of the 2-year ban before issuance of an
                                 initial contact letter. Programming changes will not be
                                 available until 2006.
                                 3. Make sure Compliance site management takes
                                    appropriate actions to help ensure all EIC examiners
                                    receive adequate ban training, consider the ban on each
                                    EIC examination they work, and properly apply the ban
                                    guidelines.
                                 Management’s Response: The IRS has stressed application
                                 of the 2-year ban in various meetings. The Decision
                                 Support Tool (DST), an interactive web-based tool to assist
                                 examiners in making proper EIC determinations, will
                                 include reminders to consider imposing the 2-year ban when
                                 taxpayers do not comply with the EIC rules. The DST will
                                 also provide links to the guidance mentioned in the
                                 corrective actions to Recommendation 1.
                                 When a 2-year ban indicator is placed on a taxpayer’s
Due to the Design of the
                                 account, the intent is to prevent the EIC for the first
Computer Programming, the
                                 2 tax years, subsequent to the examined tax year, for which
Appropriate Tax Years Were
                                 the taxpayer has not yet filed a return.14 For example:
Not Always Banned
                                 •    If TY 2001 was examined, and the TY 2002
                                      tax return had not yet been filed, the ban applies for
                                      TYs 2002 and 2003.




                                 13
                                    Such as that on the Dependent Database, which is used to select
                                 EIC returns for examination.
                                 14
                                    This is determined when the examination closure posts to the
                                 IRS Master File.
                                                                                                Page 10
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   •    If TY 2001 was examined, and the TY 2002
                        tax return had already been filed, the ban applies for
                        TYs 2003 and 2004.
                   As subsequent tax returns were processed for banned
                   taxpayers, computer programming did not always prevent
                   the EIC for the correct 2 tax years. Some tax returns had the
                   EIC banned when it should not have been; other tax returns
                   did not have the EIC banned when it should have been.
                   From a sample of 241 banned taxpayers, 5 tax returns had
                   the EIC banned in error and an additional 62 tax returns had
                   the potential15 for the EIC to be banned in error. Also, 3 tax
                   returns did not have the EIC banned when it should have
                   been, and an additional 38 tax returns had the potential16 for
                   not having the EIC banned when it should be.
                   The design of the ban programming allowed these problems
                   to occur. The programming relied primarily on counting tax
                   returns to determine which returns were banned and when to
                   release the ban. Although unfiled tax returns should have
                   been considered in determining which tax years were
                   banned, the programming counted only those tax returns
                   that were filed. When taxpayers did not file returns for tax
                   years that should have been banned, later tax returns were
                   banned in error. In addition to the counting process, the
                   programming also released the ban after a specified period
                   of time. This allowed taxpayers who filed late returns to
                   avoid the ban, although they would still be required to
                   recertify their eligibility to receive the EIC.
                   As a result, some taxpayers had their EIC improperly
                   denied. In other instances, IRS resources may have been
                   wasted examining taxpayers who should have been banned.
                   We reviewed 400 of 3,500 tax returns with the EIC banned
                   during return processing from January through
                   October 2003 and estimate that approximately
                   380 (11 percent) of the 3,500 were banned in error.




                   15
                      The potential erroneous bans included returns with no EIC claimed
                   and returns that were not filed at the time of our review.
                   16
                      The potential returns that would not be banned had not been filed at
                   the time of our review.
                                                                                   Page 11
                 Application of the Earned Income Credit Two-Year Ban
               Could Be More Consistent, Accurate, and Clear to Taxpayers

                                  Recommendation

                                  To help ensure the correct tax years are banned, the
                                  Commissioner, W&I Division, should:
                                  4. Revise the ban programming to consider unfiled and
                                     late-filed tax returns. We believe this could be
                                     accomplished, in part, by establishing a computer field
                                     that contains the first tax year after the ban expires. This
                                     field could be used to determine which tax returns
                                     should be banned and which would require
                                     recertification. This field could also be used to help
                                     prevent actions subsequent to return processing that
                                     incorrectly allow the EIC for a banned tax year.17
                                  Management’s Response: The IRS will update ban
                                  programming to consider nonfiled years when determining
                                  the ban period. In addition, a new display field will show
                                  the year the ban expires. This field will print on the
                                  Computer Paragraph (CP) 79A notice.
                                  The ban notice, form instructions, and Earned Income
Correspondence and
                                  Credit (EIC) (Publication 596) did not specifically inform
Instructions Related to
                                  taxpayers who were attempting to recertify of their
the Two-Year Ban Need
                                  responsibilities and warn them about the ban. These
Improvement
                                  documents also did not always explain which years were
                                  banned.
                                  One goal of the IRS Commissioner is to improve service to
                                  taxpayers to make it easier for them to understand and
                                  comply with the tax laws. Notices, instructions, and
                                  publications should clearly inform taxpayers about the ban
                                  and clearly explain what they should do to claim the EIC
                                  after the ban has expired. These documents should also
                                  adequately warn taxpayers about the ban and help them
                                  avoid it.
                                  IRS management did not ensure EIC correspondence and
                                  instructions included complete ban information, warned
                                  taxpayers about the ban, and helped taxpayers avoid the ban.



                                  17
                                     For 241 banned taxpayers, approximately $6,800 of the EIC was
                                  allowed after return processing for 4 banned tax years. Because the
                                  bans were not removed, these actions appear to be incorrect.
                                                                                                Page 12
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   The notice explaining the ban could be improved
                   The IRS sends taxpayers a notice about the ban when it is
                   imposed.18 This notice identifies the tax year examined,
                   explains the ban, and gives examples showing which years
                   are banned. The notice also explains that to claim the EIC
                   after the ban, the taxpayer must file an Information To
                   Claim Earned Income Credit After Disallowance
                   (Form 8862) with the next tax return claiming the EIC.
                   This notice could better inform and warn taxpayers about
                   claiming the EIC after the ban expires. The notice seems to
                   “invite” taxpayers to claim the EIC again, stating simply,
                   “To claim the EIC after the 2-year ban, you must attach a
                   completed Form 8862 . . . .”
                   This notice does not emphasize that taxpayers must meet all
                   the current EIC requirements; it does not, as does a related
                   notice,19 inform taxpayers that they may be asked to
                   document their EIC claim or explain that their EIC will be
                   denied without Form 8862; it does not inform taxpayers that
                   their tax return is likely to be examined; it does not warn
                   them of another possible penalty and/or ban if they again
                   improperly claim the EIC; and it does not accurately reflect
                   the revised Form 8862 requirements for claiming the EIC
                   without a qualifying child. In addition, the notice would be
                   more informative if it specified the first tax year for which
                   the taxpayer may again be able to claim the EIC.
                   Tax form and publication ban information could be
                   improved
                   Form 8862 instructions, individual tax return20 instructions,
                   and Publication 596 all accurately inform taxpayers about
                   the ban. However, these documents could be improved to
                   better educate taxpayers about the recertification process
                   and help them avoid the ban, warn taxpayers about the ban,
                   and make it clear which years are banned.


                   18
                      Notice CP 79A.
                   19
                      Notice CP 79, issued to taxpayers with the EIC denied in an
                   examination but who are not banned.
                   20
                      This includes U.S. Individual Income Tax Returns (Forms 1040 and
                   1040A) and Income Tax Return for Single and Joint Filers With No
                   Dependents (Form 1040EZ).
                                                                               Page 13
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   Taxpayers who want to recertify their EIC eligibility must
                   file Form 8862. Form 8862 instructions advise taxpayers to
                   file the form if they “now want to claim the EIC” and also
                   advise banned taxpayers “. . . do not file Form 8862 or take
                   the credit for 2 years if it was determined that your error
                   was due to reckless or intentional disregard of the EIC
                   rules . . . .” These instructions seem to “invite” taxpayers to
                   file Form 8862 by referring to “want to claim the EIC”
                   without emphasizing that they must qualify for the EIC.
                   The instructions do not include a warning about the ban.
                   This is especially important because, in our case review,
                   approximately one-half of the taxpayers intentionally
                   banned by examiners were trying to recertify. In addition,
                   Form 8862 instructions do not explain, or provide a
                   reference to explain, which 2 tax years are banned.
                   Similarly:
                   •      Individual tax return instructions advise banned
                          taxpayers “do not file Form 8862 or take the credit for
                          2 years if it was determined that your error was due to
                          reckless or intentional disregard of the EIC rules,” but
                          do not explain, or provide a reference to explain, which
                          2 tax years are banned.
                   •      Publication 596 includes sections on claiming the EIC
                          after it has been denied and also after it has been
                          banned. Both sections instruct taxpayers to file
                          Form 8862 “if you wish to claim the EIC.” Here again,
                          these instructions seem to “invite” taxpayers to claim the
                          EIC again without emphasizing that they must qualify
                          for it and without warning them about the ban.
                   Improving this notice and these instructions may help some
                   taxpayers avoid the ban and help banned taxpayers comply
                   with the ban. Taxpayers trying to recertify may not have
                   understood their responsibilities and the potential for being
                   banned. Also, banned taxpayers may not have understood
                   which tax years were banned.
                   •      For Fiscal Year 2003, approximately 8,600 notices21
                          were sent to taxpayers to explain the ban. These


                   21
                        Volume was provided by the IRS.
                                                                            Page 14
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                       taxpayers may not have understood the requirements for
                       claiming the EIC after their bans expired.
                   •   Of 116 ban examinations reviewed, 50 taxpayers
                       (43 percent) were trying to recertify. Because these
                       taxpayers claimed the EIC again after having it denied in
                       a prior examination and were still unable to verify their
                       EIC eligibility, they may not have understood the
                       requirements to recertify or the potential for the ban.
                   •   From January to October 2003, approximately
                       3,200 taxpayers filed returns claiming the EIC for a
                       banned tax year. These taxpayers may not have
                       understood which 2 tax years were banned.

                   Recommendations

                   To help taxpayers comply with 2-year ban requirements and
                   help them avoid the ban, the Commissioner, W&I Division,
                   should:
                   5. Revise the CP 79A notice to emphasize that recertifying
                      taxpayers must meet EIC requirements, warn of the
                      likelihood of an examination and potential for another
                      ban, and reflect the revised Form 8862 requirements
                      when claiming the EIC without qualifying children. The
                      revised notice should also include the first tax year for
                      which the taxpayer may again be able to claim the EIC.
                      If ban programming is revised as suggested in
                      Recommendation 4, this tax year information would be
                      available.
                   Management’s Response: The CP 79A notice was revised
                   to incorporate all of the recommended changes. As
                   discussed in the response to Recommendation 4, the notice
                   will now indicate the tax year in which the taxpayer can
                   again claim the EIC if eligible.
                   6. Revise Form 8862 instructions and Publication 596 to
                      emphasize that recertifying taxpayers must meet EIC
                      requirements and to warn taxpayers about the ban. Also,
                      the Commissioner, W&I Division, should revise
                      Form 8862 instructions and the individual tax form
                      instructions to explain (or provide a reference that
                      explains) which years are banned.
                                                                        Page 15
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                   Management’s Response: The IRS will incorporate the
                   revisions of the Form 8862, its instructions, and
                   Publication 596 into the Tax Year 2004 version of these
                   forms, instructions, and publications.




                                                                       Page 16
                       Application of the Earned Income Credit Two-Year Ban
                     Could Be More Consistent, Accurate, and Clear to Taxpayers

                                                                                          Appendix I


                             Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) effectively implemented the 2-year ban, also referred to here as “the ban,” for the Earned
Income Credit (EIC). We determined whether the ban was consistently and correctly applied,
the ban indicator was properly set and was properly released when the ban expired, and returns
subject to the ban were correctly banned. We also determined whether instructions and notices
to taxpayers regarding the ban were clear, complete, and accurate.
To accomplish our objective, we:
I.         Determined whether bans were correctly and consistently applied.
           A. Evaluated national guidelines for applying the ban.
           B. Interviewed analysts, managers, and examiners at Wage and Investment Division and
              Small Business/Self-Employed Division Compliance sites to determine the criteria
              used for applying the ban.
           C. Evaluated a judgmental sample of 116 examinations from 4,170 closed examinations
              with the ban applied to determine whether the bans were warranted. We obtained an
              Individual Master File1 extract of examinations closed with the EIC decreased and an
              accuracy penalty assessed. We manipulated the extract data and identified the
              4,170 examinations closed from September 2002 through August 2003 by the
              7 Compliance sites working EIC Program examinations. We selected a judgmental
              sample because we wanted to include cases from each of these sites, the sample could
              be analyzed within reasonable time periods, and we did not plan to make projections.
           D. Compared the volume of bans set to the volume of EIC Program examinations closed
              by the Compliance sites for the period October 2002 through August 2003. We
              obtained the ban volume from our Master File extract noted in Step I. C. The IRS
              provided us with the volume of EIC Program examinations closed by site for this time
              period.
II.        Determined whether the ban indicator was properly set on taxpayers’ Individual Master
           File accounts when examinations were closed with transactions that should set the ban.
           A. Identified 7,535 examinations that should have set the ban from our Master File
              extract of examination closures from October 2002 through August 2003. From
              these, we identified 259 without the ban indicator on the account and reviewed a
              random sample of 100 to determine why there was no indicator. We used a random


1
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                              Page 17
                    Application of the Earned Income Credit Two-Year Ban
                  Could Be More Consistent, Accurate, and Clear to Taxpayers

            sample to ensure each account had an equal chance of being selected, which provided
            sufficient evidence to support our results.
        B. Identified all 241 taxpayers’ accounts with the ban indicator as of December 2002
           from the Treasury Inspector General for Tax Administration’s (TIGTA) 1 percent file
           of accounts on the Individual Master File. We reviewed all 241 accounts to
           determine whether there was an examination closure that would set the ban indicator.
III.    Determined whether the ban indicator was effective in preventing the EIC from being
        allowed for the 2 banned tax years.
        A. Analyzed the 241 accounts with the ban indicator described in Step II. B. to
           determine whether the EIC was banned for the correct tax years and allowed when the
           bans should have been expired.
        B. Analyzed a statistically valid sample of 400 tax returns with the EIC banned because
           we wanted to estimate the number of tax returns incorrectly banned. From the
           TIGTA’s Data Center Warehouse Individual Return Transaction File2 information,
           we identified 3,572 tax returns with the EIC denied because of the ban. These returns
           were posted to the Master File from January through October 2003, and we identified
           those with a Taxpayer Notice Code indicating the EIC was denied due to the ban.
           From the 3,572 returns, we reviewed a sample of 400 returns, which reflected a
           confidence rate of 97 percent, a precision of + 3 percent, and the actual error rate of
           10.75 percent.
IV.     Determined whether information provided to taxpayers about the ban was clear,
        complete, and accurate.
        A. Evaluated instructions related to the ban for individual income tax returns,3
           Information To Claim Earned Income Credit After Disallowance (Form 8862), and
           the Earned Income Credit (EIC) publication (Publication 596).
        B. Evaluated the notice Computer Paragraph 79A sent to taxpayers when an examination
           closes with the ban.




2
  TIGTA data extracted from the IRS’ Individual Return Transaction File, which contains tax return information
input from individual tax returns as they are processed. The TIGTA extract includes income, tax, and credit
amounts reported and allowed on the return.
3
  This includes U.S. Individual Income Tax Returns (Forms 1040 and 1040A) and Income Tax Return for Single and
Joint Filers With No Dependents (Form 1040EZ).
                                                                                                     Page 18
                 Application of the Earned Income Credit Two-Year Ban
               Could Be More Consistent, Accurate, and Clear to Taxpayers

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Acting Director
Richard J. Calderon, Audit Manager
Carola Gaylord, Lead Auditor
Linda Bryant, Senior Auditor
James Adkisson, Information Technology Specialist




                                                                                         Page 19
                Application of the Earned Income Credit Two-Year Ban
              Could Be More Consistent, Accurate, and Clear to Taxpayers

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:C&L
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Compliance Services Campus Operations, Small Business/Self-Employed Division
SE:S:CSCO
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Compliance Campus Operations, Brookhaven SE:S:CSCO:CCO:BR
Director, Compliance Campus Operations, Philadelphia SE:S:SCCO:CCO:PHIL
Field Director, Compliance Services (Andover) SE:W:CP:CS:AN
Field Director, Compliance Services (Atlanta) SE:W:CP:CS:AT
Field Director, Compliance Services (Austin) SE:W:CP:CS:AU
Field Director, Compliance Services (Fresno) SE:W:CP:CS:F
Field Director, Compliance Services (Kansas City) SE:W:CP:CS:KC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
    Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 20
                     Application of the Earned Income Credit Two-Year Ban
                   Could Be More Consistent, Accurate, and Clear to Taxpayers

                                                                                                  Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; 384 taxpayers (see page 10).
Methodology Used to Measure the Reported Benefit:
From the Treasury Inspector General for Tax Administration’s (TIGTA) Data Center Warehouse
Individual Return Transaction File,1 we identified 3,572 tax returns with the Earned Income
Credit (EIC) disallowed during return processing because of the 2-year ban, also referred to here
as “the ban.” We identified those returns posted to the Individual Master File2 from January
through October 2003 with a Taxpayer Notice Code (TPNC) of 658, indicating the EIC was
disallowed due to the ban. We selected a statistical sample of 400 returns and evaluated these
taxpayer accounts to determine if the EIC for the selected return should have been banned. We
identified 43 (10.75 percent) returns that had the EIC banned in error. Based on the actual error
rate, a 97 percent confidence level, and a +/- 3 percent precision, we estimate that 384 of the
3,572 returns had the EIC banned in error. All the identified tax returns were for Tax Year 2002,
and for different taxpayers, so an estimated 384 taxpayers were affected.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 8,637 notices (see page 12).
Methodology Used to Measure the Reported Benefit:
We reviewed the notice sent to taxpayers about the ban3 and identified unclear, missing, or
inaccurate information that could be confusing to taxpayers. The Internal Revenue Service
provided a count of the examinations closed each week of Fiscal Year 2003 with the ban applied,
which totaled 8,637.4 The notice explaining the ban would have been issued for each of these
examinations.



1
  TIGTA data extracted from the Internal Revenue Service’s (IRS) Individual Return Transaction File, which
contains tax return information input from individual tax returns as they are processed. The TIGTA extract includes
income, tax, and credit amounts reported and allowed on the return.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  Notice Computer Paragraph 79A.
4
  This included audit closures posted to the Individual Master File from processing cycle 200240 through
cycle 200339 (September 29, 2002, through September 27, 2003).
                                                                                                          Page 21
                  Application of the Earned Income Credit Two-Year Ban
                Could Be More Consistent, Accurate, and Clear to Taxpayers

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 3,235 taxpayers (see page 12).
Methodology Used to Measure the Reported Benefit:
We identified 3,572 returns (for 3,572 taxpayers) processed from January through October 2003
with the EIC disallowed because of the ban. Of these, an estimated 384 returns had the EIC
banned in error, leaving an estimated 3,188 that were correctly banned. The 3,188 taxpayers
filing these returns may not have understood which 2 tax years were banned. Refer to the first
Outcome Measure (see page 21), which describes how these returns were identified and how we
estimated that 384 were banned in error.
We reviewed 116 examinations closed from September 2002 through August 2003 with the ban
applied. We determined whether these taxpayers had a prior examination denial of the EIC at
the time they filed the ban year return. Of the 116 bans, 50 taxpayers had had their EIC
previously denied and were trying to recertify. Three of these taxpayers were also included in
the 3,572 immediately above, leaving 47 additional taxpayers who may not have understood
what was required to recertify.




                                                                                        Page 22
                  Application of the Earned Income Credit Two-Year Ban
                Could Be More Consistent, Accurate, and Clear to Taxpayers

                                                                                      Appendix V


                                     Ban Guideline Issues

Taxpayers With the Earned Income Credit (EIC) Denied in a Prior Examination
(Repeat Behavior)
National EIC Program Guidelines: The guideline examples for this issue changed during our
review.
•   The example in effect from January 2000 until early 2004 stated, “The taxpayer’s EIC in a
    prior year was disallowed by audit [examination] because the taxpayer could not demonstrate
    the child was the taxpayer’s qualifying child. The taxpayer files a subsequent return
    claiming EIC and again cannot demonstrate that the child was the taxpayer’s qualifying
    child. You can consider that the taxpayer intentionally disregarded the EIC rules and
    regulations and impose the 2-year ban.”
•   For examiner training in early 2004, examples provided for similar situations made it clear
    that the child had not lived with the taxpayer for the year in question. Therefore, the child
    obviously did not meet the EIC residence requirement, and the taxpayer clearly was not
    entitled to the EIC.
What Examiners Were Doing: We interviewed examiners and reviewed examinations with a
2-year ban, also referred to here as “the ban,” closed from September 2002 through August 2003
and determined that application of the ban varied when the EIC was denied in a prior
examination. Some examiners routinely applied the ban when taxpayers were unable to provide
adequate documentation for their EIC claim, but there was no clear indication that the taxpayer
“recklessly or intentionally disregarded” the EIC rules. Other examiners did not apply the ban in
similar situations. We also noted instances where taxpayers were banned who may not have
known, due to timing of the prior examination or law changes, that they were not entitled to the
EIC.
Treasury Inspector General for Tax Administration (TIGTA) Comments: We believe taxpayers
with the EIC denied in a prior examination should be banned only when case facts indicate
(1) the taxpayer clearly did not meet legal requirements for claiming the EIC on the subsequent
return and (2) the prior examination would have made the taxpayer aware of the legal
requirement(s) that was not met.
What Is Needed: The revised examples provided for the 2004 examiner training make it clear
there should be indications of abuse by these repeating taxpayers rather than simply a lack of
documentation. This should help reduce the number of incorrect bans. Internal Revenue Service
(IRS) management needs to emphasize these examples to help ensure examiners implement the
revised guidelines. Management should also provide examples of taxpayers with the EIC
previously denied who should not be banned because the prior examination would not have made
them aware of the legal requirements that were not met in the subsequent examination. For
                                                                                            Page 23
                  Application of the Earned Income Credit Two-Year Ban
                Could Be More Consistent, Accurate, and Clear to Taxpayers

example, when the return being examined was filed long before the prior examination denying
the EIC was closed; or when the EIC is disallowed based on a legal issue, and the law regarding
that issue changed from the prior examination.
Examinations With No Response
National EIC Program Guidelines: The guidelines for examinations with no response varied
and were not always distributed to all Compliance sites.
•   In early 2000, when the sites began applying the ban, guidelines allowed the ban on cases
    with no response.
•   Approximately 3 months after the sites began applying the ban, the guidelines were changed
    to apply the ban only if a taxpayer responded.
•   In November 2002, a National Headquarters office analyst forwarded IRS guidance to the
    sites with an introductory analysis stating, “It clearly states that we should NOT impose the
    ban when a taxpayer has not responded…” However, the guidance simply stated that a
    taxpayer’s failure to respond was not by itself a reason to apply the ban – more facts are
    required to support the ban.
•   In November 2002, one site questioned the analyst’s above analysis. The analyst retracted it,
    but the retraction was sent only to the site that questioned the analysis.
•   Examiners’ training material for 2004 again advised examiners to apply the ban only if the
    taxpayer responded.
What Examiners Were Doing: The majority of examiners we interviewed told us they would not
ban a taxpayer who did not respond. However, other examiners told us they would ban these
taxpayers if available case facts and circumstances supported the ban. In addition, there was no
opportunity to place the ban on cases worked completely by the automated system.
In our sample review of 85 examinations with intentional bans, 56 (66 percent) had taxpayer
responses. The remaining 29 (34 percent) had no response from the taxpayers.
TIGTA Comments: We believe examiners should apply the ban without a taxpayer response
when available case facts and circumstances support the ban. This is consistent with IRS
procedures for assessing the accuracy-related penalty and with other IRS guidance regarding the
ban. Taxpayers involved in flagrant EIC abuse are likely to not respond to the examination,
which would allow examiners to ban these taxpayers.
What Is Needed: Clear guidelines should be issued to allow application of the ban without a
taxpayer response when available case facts and circumstances support the ban. To help ensure
the ban is considered for cases that might otherwise be worked completely by the automated
system, management should also consider identifying potentially abusive EIC examination cases
before taxpayers are contacted to evaluate whether the ban should be proposed on the initial
examination report.

                                                                                           Page 24
                    Application of the Earned Income Credit Two-Year Ban
                  Could Be More Consistent, Accurate, and Clear to Taxpayers

Examinations With Fabricated Business Income
National EIC Program Guidelines: We were unable to locate any EIC Program guidelines
regarding the ban when taxpayers could not show their business income, reported on Profit or
Loss From Business (Schedule C), existed.
What Examiners Were Doing: These examinations were worked primarily by two
Small Business/Self-Employed Division Compliance sites. Management at one site informed us
that examiners working the day shift were applying the ban to these cases, while examiners on
the night shift were not. At the second site, examiners were not applying the ban.
TIGTA Comments: Taxpayers who fabricate Schedule C income to improperly qualify for the
EIC are some of the most flagrant EIC abusers. We believe that, at a minimum, the ban is
warranted on these examinations. This is consistent with IRS guidance on disallowing the EIC
when it is determined that the business does not exist.
What Is Needed: Guidelines should be revised to include instructions to apply the ban on
Schedule C examinations when it is determined that the business does not exist.1
Examinations With the EIC Allowed to Taxpayers Without a Qualifying Child
National EIC Program Guidelines: The guidelines instructed examiners not to apply the
ban if they allowed the taxpayer the EIC without a qualifying child.
What Examiners Were Doing: Most examiners were apparently not aware of this guideline. In
our interviews, most said they would apply the ban even if they allowed the taxpayer the EIC
without a qualifying child.
TIGTA Comments: We believe this guideline does not accurately reflect the intent of the ban
law. In addition, it is not consistent with the application of the accuracy-related penalty for other
issues or in other IRS programs.2 Using this guideline, taxpayers would be banned or not banned
depending on their income levels. The ban should be applied to any taxpayer who recklessly or
intentionally disregards the EIC rules, regardless of income level.
What Is Needed: Guidelines should be revised to allow application of the ban when taxpayers
are allowed the EIC without a qualifying child.
Criminal Investigation Function Referrals
Background: The Criminal Investigation (CI) function identifies tax returns with potentially
abusive claims for the EIC. These returns may involve fabricated wage or Schedule C income.
Some of these returns are referred to the Compliance sites for examination in the EIC Program.


1
  This would apply to examinations worked by the Compliance sites. A 10-year ban is also available if the IRS
determines the EIC claim is due to fraud. At the time of our review, the 10-year ban could not be applied by the
Compliance sites.
2
  For example, adjustments for unreported income made in the Underreporter Program or made in field examinations
of Schedule C.
                                                                                                       Page 25
                     Application of the Earned Income Credit Two-Year Ban
                   Could Be More Consistent, Accurate, and Clear to Taxpayers

National EIC Program Guidelines: Examiners were instructed to not apply the ban to these
examinations. These instructions were apparently based on a November 2001 memorandum
regarding CI function referrals that stated not to consider any penalties until a national policy
was developed. At the time of our review, we were informed that no national policy had yet
been developed.
What Examiners Were Doing: Based on our discussions, examiners generally were not applying
the ban to these examinations. However, of 116 closed examinations with bans that we
reviewed, 4 were CI function referrals.
TIGTA Comments: We believe tax returns referred to the EIC Program by the CI function often
involve flagrant EIC abuse, which would warrant the ban. Although national Compliance
function analysts were concerned that the ban might create problems for the CI function on these
taxpayer accounts, national CI function analysts were not aware of any potential problems and
felt the ban was warranted. It should also be noted that the regular recertification indicator
would be set on these accounts if the EIC were denied with no ban applied. This would have a
similar effect on the account, from a CI function perspective, as the ban. Therefore, the
Compliance function concerns do not appear to be justified.
What Is Needed: A national policy needs to be developed and written guidelines need to be
issued with regard to bans on tax returns referred by the CI function to the EIC Program. We
believe examiners should be allowed to apply the ban to these examinations when warranted.
Claims for Refund
Background: Taxpayers may file a claim for refund3 of the EIC rather than claiming the EIC
when they file their original returns. Taxpayers may do this to intentionally avoid the IRS’
automated controls that help prevent erroneous EIC from being allowed as original returns are
processed.
National EIC Program Guidelines: The guidelines for applying the ban to claims for refund
varied. Examiners were at first instructed to consider the ban on claims. Later, training class
information from November 2001 indicated that the National Headquarters office was deciding
whether to apply the ban to claims and how to process the ban.
What Examiners Were Doing: Based on our discussions, examiners would consider applying the
ban to claims. However, a few informed us that they were unable to set the ban on some types of
claims. One of the transactions needed to automatically set the ban is not used for some claims.4
TIGTA Comments: For consistent treatment of taxpayers, a taxpayer who files a claim for refund
of the EIC should be subject to the ban just as is a taxpayer who claims the EIC on an original
return. However, we did not determine if these claims fall under the ban law.


3
  For example, by filing an Amended U.S. Individual Income Tax Return (Form 1040X).
4
  If no EIC is credited to the taxpayer’s account, no EIC will be reversed when an EIC claim is denied. The
transaction reversing the EIC is needed to set the ban.
                                                                                                              Page 26
                  Application of the Earned Income Credit Two-Year Ban
                Could Be More Consistent, Accurate, and Clear to Taxpayers

What Is Needed: The National Headquarters office needs to determine if claims for refund fall
under the ban law and, if so, establish a process and issue guidelines so examiners are able to
apply the ban to any claim for refund when warranted.




                                                                                          Page 27
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers

                                                             Appendix VI

     Management’s Response to the Draft Report




                                                                  Page 28
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers




                                                             Page 29
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers




                                                             Page 30
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers




                                                             Page 31
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers




                                                             Page 32
  Application of the Earned Income Credit Two-Year Ban
Could Be More Consistent, Accurate, and Clear to Taxpayers




                                                             Page 33
